Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




EXTERNAL QUALITY REVIEWS IN
  MEDICAID MANAGED CARE




                    Daniel R. Levinson
                     Inspector General

                       June 2008
                     OEI-01-06-00510
                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                    S U M M A R Y


                  OBJECTIVES
                  To determine:

                  1. the extent to and ways in which States utilize external quality
                  reviews of Medicaid managed care,

                  2. the extent to which external quality review organizations (EQRO)
                  provided States with required information, and

                  3. limitations that States have identified with the external quality
                  review process.


                  BACKGROUND
                  Medicaid is a joint Federal and State program that provides medical
                  assistance to low-income groups, such as children, senior citizens, and
                  people with disabilities. Many States utilize managed care to respond
                  to Medicaid expenditures that have more than doubled since 2000. As
                  of 2006, 65 percent of the 45.6 million Medicaid beneficiaries were
                  enrolled in managed care.

                  The Social Security Act requires States that operate Medicaid managed
                  care programs to provide for an external, independent review of their
                  managed care organizations. States may contract with an independent
                  entity called an EQRO to conduct the external quality review. The
                  Centers for Medicare & Medicaid Services (CMS) provides States with
                  matching Federal funds for review expenditures, including the
                  production of results, depending on the qualifications of their EQRO
                  contractors. Federal regulations require three mandatory activities as
                  part of this review and offer States the choice of requiring up to five
                  optional activities. Regulations also require the review to produce
                  five specific deliverables, including a detailed technical report.

                  We reviewed EQRO reports for the 37 States that arrange for external
                  quality reviews. We also reviewed the contracts and requests for
                  proposals between these States and their EQROs. We then surveyed
                  these 37 States regarding their use of EQRO reports and their
                  experience with the review process. We received a 100-percent response
                  rate. We also conducted structured interviews with representatives
                  from six States.




OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                  i
E X E C U T I V E              S U     M M A R Y 




                   FINDINGS
                   Most States are using the results of EQRO reviews. For example,
                   33 of the 37 States required their managed care plans to make changes
                   based on EQRO reports, such as how plans document and conduct
                   performance improvement projects and how plans meet State standards
                   regarding members’ access to care. Twenty-two States used EQRO
                   reports to share knowledge across plans, for example, by targeting
                   technical assistance to the plans and sharing best practices across
                   plans. Fourteen States reported amending their contracts with plans
                   based on EQRO reports and 16 States took other actions, such as setting
                   new performance standards. Overall, 21 States rated the EQRO reports
                   to be very useful. Furthermore, 25 States required their EQROs to
                   conduct optional review activities during their last annual review
                   period.
                   Some EQRO reports did not include all required information, despite
                   the States’ oversight. EQRO reports for 15 States were missing at least
                   one of the five required deliverables. The two most common missing
                   deliverables were an assessment of managed care plans’ responses to
                   previous EQRO recommendations and comparative information about all
                   of the State’s plans. EQRO reports for eight States were missing
                   information on at least one of the three mandatory activities. All States
                   reported regularly monitoring their EQROs through ongoing
                   communication, written status reports, and contract provisions. Of the
                   37 contracts and requests for proposals that we reviewed, 34 included
                   provisions to ensure EQRO compliance with Federal regulations.
                   More than half of the States cited concerns with the external quality
                   review process. Sixteen States identified staffing concerns with the
                   external quality review process, particularly turnover and training
                   issues. Thirteen States raised concerns with the quality of EQRO
                   reports, especially their timeliness and the degree to which their
                   findings and recommendations could be implemented. Five States
                   reported finding the mandatory activities redundant to other
                   monitoring activities, such as those conducted by private accreditors.
                   Many States requested technical support from CMS to help address
                   these issues.




 OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                ii
E X E C U T I V E              S U     M M A R Y 





                   RECOMMENDATIONS
                   CMS should work with States to ensure that EQROs are providing
                   complete information. CMS could, as part of its review of the contents
                   of the EQRO reports, inform States if it finds that any of the required
                   deliverables are missing. Further, CMS could amend its regulations to
                   describe, as a condition for receiving enhanced reimbursement, the steps
                   that States must take to ensure that all the required deliverables are
                   included in the quality review results.
                   CMS should provide additional technical assistance and written
                   guidance to States. CMS could do this by organizing teleconferences,
                   offering written guidance, and sharing best practices. It should schedule
                   these teleconferences regularly and make any written guidance available
                   online. CMS could use a format similar to a teleconference it held with
                   States in 2006. CMS should consider two priorities for its technical
                   assistance and written guidance: minimum standards for EQRO report
                   organization and content and use of accreditation data in external quality
                   reviews.


                   AGENCY COMMENTS
                   CMS agreed with both of our recommendations and cited actions that it
                   has taken in response to each. It provided feedback to Medicaid
                   Directors in 15 States regarding deficiencies in EQRO reports. CMS
                   also focused one of its triannual audio conferences, available to States
                   and EQROs, on external quality reviews. Further, CMS assisted a
                   managed care accrediting organization in creating a document for
                   States on using accreditation data in their reviews.




 OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                 iii
Δ   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 7

                   Most States are using results of EQRO reviews . . . . . . . . . . . . . . . 7 


                   EQRO reports for some States were missing required elements. . . 9 


                   More than half of States had concerns with the review process . . 11 




         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16 

                   A: Status of States’ Arrangements for Reviews . . . . . . . . . . . . . . 16 


                   B: Time Period of EQRO Reports Reviewed . . . . . . . . . . . . . . . . . 17 


                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

I N T R O D        U C T      I O N
Δ    I N T R O D U C T I O N


                    OBJECTIVES
                    To determine:

                    1. the extent to and ways in which States utilize external quality
                    reviews of Medicaid managed care,

                    2. the extent to which external quality review organizations (EQRO)
                    provided States with required information, and

                    3. limitations that States have identified with the external quality
                    review process.


                    BACKGROUND
                    Medicaid and the Growth of Managed Care
                    Medicaid is a joint Federal and State program that provides medical
                    assistance to low-income groups, such as children, senior citizens, and
                    people with disabilities. Individual States establish eligibility
                    requirements, benefits packages, and Medicaid payment rates under
                    standards set by the Centers for Medicare & Medicaid Services (CMS).

                    Medicaid spending has increased at both the Federal and State levels.
                    Federal expenditures increased from $118 billion in 2000 to $180 billion
                    in 2006.1 State expenditures rose by almost 60 percent, from $89 billion
                    in 2000 to $142 billion in 2006. These expenditures account for almost
                    one-quarter of all States’ expenditures.2
                    In response to this growth, States have increasingly utilized managed
                    care to deliver Medicaid services to beneficiaries. Managed care is a
                    health care delivery system that aims to maximize efficiency by
                    negotiating rates, coordinating care, and managing use of services.
                    From 2000 to 2006, enrollment in Medicaid managed care grew
                    59 percent, from 18.8 million to 29.8 million beneficiaries. As of 2006,
                    65 percent of the 45.6 million Medicaid beneficiaries were enrolled in
                    managed care.3



                           1 Department of Health and Human Services, “Budget in Brief,” 2002 and 2008. 

                           Available online at http://www.hhs.gov/budget/docbudget.htm. Accessed on 

                           May 20, 2008. 

                           2 National Association of State Budget Officers, “2006 State Expenditure Report,” 

                           2007. 

                           3 CMS, “Medicaid Managed Care Enrollment Report as of June 30, 2006.” 





 OEI-01-06-00510    EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                                        1
I N T R O D        U C T      I O N


                    Concerns About Medicaid Managed Care Quality of Care
                    The Government Accountability Office found that the capitated (i.e., a
                    predetermined amount per beneficiary) nature of managed care could
                    create fiscal incentives to underserve beneficiaries. It recommended
                    that States carefully monitor access to and quality of care delivered to
                    Medicaid managed care populations.4 Other published studies have
                    suggested that managed care reduces the quality and accessibility of
                    health care, particularly in specific vulnerable subpopulations.5
                    State Oversight of Medicaid Managed Care
                    The Social Security Act requires contracts with Medicaid managed care
                    organizations (MCO) to provide for an external independent review.
                    Specifically, it mandates that each MCO contracted with the State must
                    be reviewed annually by a “qualified independent entity.” This review
                    must evaluate the MCO’s “quality outcomes and timeliness of, and
                    access to, the items and services for which the organization is
                    responsible.”6
                    Requirements for External Quality Review Organizations
                    In January 2003, CMS issued a final rule to further specify
                    requirements for external quality reviews and EQROs.7 To qualify as
                    an EQRO, an organization must have knowledgeable staff and sufficient
                    physical, financial, and technological resources. An EQRO and any of
                    its subcontractors must also be independent from the State Medicaid
                    agency and the MCOs under review. States are responsible for ensuring
                    that EQROs meet these requirements.8 Some EQROs hold external
                    quality review contracts with several States. For example, the Health
                    Services Advisory Group holds EQRO contracts in 11 States.9



                           4 Government Accountability Office, GAO/T-HRD-93-10, “Medicaid: States Turn to

                           Managed Care to Improve Access and Control Costs,” 1993. Available online at 

                           http://archive.gao.gov/d42t14/148756.pdf. Accessed on May 20, 2008. 

                           5 E.C. Schneider, et al., “Racial Disparities in the Quality of Care for Enrollees in 

                           Medicare Managed Care,” Journal of the American Medical Association, 2002, 

                           Volume 287, pp. 1288–1294. D. G. Clement, et al., “Access and Outcomes of Elderly 

                           Patients Enrolled in Managed Care,” Journal of the American Medical Association,

                           1994, Volume 271, pp. 1487–1492. 

                           6 Social Security Act § 1932(c)(2)(A)(i).

                           7 42 CFR pt. 438, subpart E.

                           8 42 CFR § 438.354. 

                           9 “Florida Medicaid Selects HSAG for External Quality Review Services,”              

                           May 25, 2006. Available online at http://www.hsag.com/news/2006_0525.asp. 

                           Accessed on May 20, 2008.




 OEI-01-06-00510    EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                                            2
I N T R O D        U C T      I O N


                    Regulations also permit the State to conduct the review.10 Most States
                    choose to contract with independent EQROs to conduct the required
                    activities; however, some States perform one or more of the activities
                    themselves. Even States conducting their own reviews usually contract
                    with EQROs to write the final technical reports.

                    States receive an enhanced Federal match of 75 percent for their review
                    expenditures, including the production of results, if they contract with
                    qualified EQROs. They receive a Federal match of 50 percent for any
                    activities conducted by nonqualified entities.11 States are responsible
                    for contracting with EQROs and ensuring that EQROs are producing
                    the required deliverables.12
                    Mandatory and Optional Review Activities
                    Federal regulations require that external quality reviews include three
                    mandatory activities. For each MCO or prepaid inpatient health plan13
                    (hereafter referred to as plans), the external quality review must
                    include the following activities:

                    1. validation of performance improvement projects (PIP) required by
                       the State and underway in the preceding 12 months;

                    2. validation of plan performance measures required by the State and
                       reported by the MCO in the preceding 12 months; and

                    3. a review, conducted in the previous 3-year period, to determine the
                       plan’s compliance with State standards for access to care, structure
                       and operations, and quality measurement and improvement.14
                    In addition, Federal regulations allow States to require up to five
                    optional activities:

                    1. validation of encounter data reported by a plan,

                    2. administration and validation of consumer and provider surveys on
                       quality of care,

                    3. calculation of additional performance measures,



                           10 42 CFR § 438.358(a). 

                           11 42 CFR § 438.370.

                           12 42 CFR §§ 438.356 and 438.364.

                           13 These are health plans that provide inpatient hospital or institutional services on

                           an at-risk or other than State plan reimbursement basis. 

                           14 42 CFR § 438.358(b). 





 OEI-01-06-00510    EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                                       3
I N T R O D        U C T      I O N


                    4. conduct of additional PIPs, and

                    5. conduct of studies on quality focused on a particular aspect of clinical
                       or nonclinical services at a point in time.15
                    In May 2002, CMS issued a series of protocols for use in conducting
                    Medicaid external quality review activities. These serve as guidelines
                    for EQROs in conducting mandatory and optional external quality
                    review activities.
                    External Quality Review Deliverables
                    After completing the review activities, an EQRO must produce the
                    following information (hereinafter referred to as deliverables):

                    1. a detailed technical report describing the data aggregation and
                       analysis and the way in which conclusions were drawn as to the
                       quality, timeliness, and access to the care furnished by the plans;

                    2. an assessment of each plan’s strengths and weaknesses with respect
                       to quality, timeliness, and access to care;

                    3. as the State determines, methodologically appropriate, comparative
                       information about all plans;

                    4. recommendations for improving the quality of health care services
                       furnished by the plans; and

                    5. an assessment of the degree to which each plan has addressed
                       effectively the quality improvement recommendations made by an
                       EQRO during the prior year’s review.16
                    Some EQROs issue one technical report encompassing all of the plans
                    in the State; others issue multiple reports, each specific to one plan or
                    activity. Generally, these reports are organized around the
                    mandatory activities. However, even if a report is missing
                    information on one of the mandatory activities, it may still contain all
                    of the required deliverables. Regulations require States to make
                    these reports available to interested parties upon request.17 Usually
                    the States also provide CMS with copies of the deliverables.




                           15 42 CFR § 438.358(c).
                           16 42 CFR § 438.364(a).
                           17 42 CFR §§ 438.364(b) and 438.350(f).




 OEI-01-06-00510    EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                    4
I N T R O D        U C T      I O N


                    CMS Efforts To Improve the External Quality Review Process
                    In October 2006, CMS held an audio conference with State Medicaid
                    agencies addressing the assessment, utility, and improvement of EQRO
                    reports. During this conference, CMS presented its review and
                    evaluation of reports from 22 States. According to the review, reports
                    vary substantially in organization, length, detail, topics addressed, and
                    presence and extent of recommendations. CMS found that many
                    reports did not comply with at least one external quality review
                    regulatory requirement.18
                    CMS prepared a “tool kit” based on that review.19 This tool kit offered a
                    brief assessment of 2005 reports, identified key opportunities for
                    improved reporting, recommended specific sections to be included in
                    reports, and suggested a standardized format for submitting reports.20
                    CMS provided the tool kit to States, who could then provide it to their
                    EQROs.


                    METHODOLOGY
                    Scope
                    This evaluation is national in scope. Forty States, including the District
                    of Columbia (hereafter referred to as States), contract with plans and
                    thus must arrange for external quality reviews. Three of these States
                    (Georgia, Maine, and New York) are currently working with CMS to
                    implement the review process, so we excluded them from our analysis.21
                    We included the 37 States that have implemented the review process.
                    States that do not contract with managed care organizations are not
                    required to conduct reviews. See Appendix A for a list of all States and
                    whether they contract with plans.
                    Data Sources
                    We collected and analyzed data from the following sources:

                    EQRO reports. We obtained from CMS and the States copies of all
                    reports that EQROs produced pursuant to regulations. Because review
                    periods differed across States, we could not review reports for all States

                           18 CMS, “State External Quality Review Tool Kit for State Medicaid Agencies,” 

                           October 2006. 

                           19 Ibid.

                           20 Ibid. 

                           21 Since the completion of our review, Maine has discontinued its Medicaid managed

                           care program and will not be implementing an external quality review process. 




 OEI-01-06-00510    EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                                    5
I N T R O D        U C T      I O N


                    for the same time period. See the table in Appendix B for the time
                    periods covered by the reports we reviewed.

                    Contracts. We obtained from the States copies of their EQRO contracts
                    or requests for proposals covering 2005.

                    Surveys. We sent surveys by mail to the Medicaid Directors of the
                    37 States and received a 100-percent response rate. The surveys asked
                    States how they conduct oversight of their EQROs and utilize the
                    results of previous EQRO reports. The surveys also asked about States’
                    general experiences in implementing the external quality review
                    process.
                    Interviews. We conducted structured telephone interviews (and one
                    in-person interview) with representatives from Medicaid offices in six
                    States. We purposively selected these States based on their survey
                    responses.
                    Analysis
                    We reviewed each EQRO report to determine whether it included all
                    elements required by Federal regulations. We counted elements as
                    missing if they were not present in the report and the report or survey
                    data did not explain why. For example, we did not count the
                    assessment of prior recommendations as missing if the plan’s report
                    noted that the plan had not contracted with the State the previous year
                    or if the State’s survey reported that the State was currently only in its
                    second review period. We also did not count any section as missing if
                    the State was still in the process of implementing that aspect of the
                    review, for example, if the State had not initiated any PIPs in the
                    previous 12-month period.
                    Limitations
                    Data from the surveys and follow-up interviews were self reported by
                    States. We did not independently verify these data.

                    We did not determine whether assessments of plan strengths and
                    weaknesses were present in EQRO reports. Because the general scope
                    of an external quality review is to examine plan strengths and
                    weaknesses with respect to quality, timeliness, and access to care, all
                    data in the report relate to these topics.
                    Standards
                    We conducted this study in accordance with the “Quality Standards for
                    Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.

 OEI-01-06-00510    EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                  6
Δ   F I N D I N G S


         Most States are using the results of         Of the 37 States, 29 rated the
                             EQRO reviews             external quality review process as
                                                      very important in overseeing their
                  Medicaid managed care programs. States cited several benefits of the
                  review process, including identifying and documenting concerns with
                  plans, providing a comprehensive review of the State Medicaid
                  programs and their plans, and providing additional monitoring that the
                  States are unable to do on their own. Similarly, 21 States rated the
                  EQRO reports as very useful, citing the data in the reports and the
                  independence of the reviews.
                  Thirty-three of thirty-seven States required their managed care plans to
                  make changes based on EQRO reports
                  The plans developed and implemented these State-required changes.
                  The most common changes, required by 28 States, called for improving
                  the documentation and conduct of PIPs. For example, plans had to
                  document that they tested the statistical significance of reported
                  improvements. They also had to create templates for developing and
                  submitting PIPs. Twenty States reported requiring changes in how
                  plans complied with State and Federal standards. These changes
                  typically addressed standards regarding member grievances and
                  appeals or access to care. See Table 1 for a list of changes States
                  required plans to make based on EQRO reports.



                  Table 1: Managed Care Plan Changes Required by State


                                                                                                         Number of States
                                                                                                           That Required
                     Area in Which State Required Managed Care Plan Change                                      Change*

                     Documentation and Conduct of Performance Improvement Projects                                    28

                     Compliance With State and Federal Standards                                                      20

                     Calculation and Reporting of Performance Measures                                                16

                     Improvement in Information Systems                                                               10

                     Other Change                                                                                      4

                  Source: Office of Inspector General analysis of State Medicaid Agency survey data, 2007.

                  * The numbers do not total 33 because some States required more than one change.




OEI-01-06-00510   EXTERNAL QUALITY REVIEWS      IN   MEDICAID MANAGED CARE                                             7
F   I N D I N G 
S


                      States typically required the managed care plans to develop and
                      complete corrective action plans (CAP) to address these changes. States
                      also reported providing technical assistance to the plans to help them
                      develop their CAPs. States used several methods to ensure that the
                      plans made these changes, such as including contractual provisions,
                      monitoring CAPs, and delegating oversight to EQROs.

                      According to eight States, their managed care plans initiated changes
                      based on EQRO report data without the States requiring them to do so.
                      For example, one plan made changes to its internal information systems
                      after the EQRO pointed out shortcomings.
                      Twenty-two States used EQRO reports to share knowledge across managed
                      care plans
                      Knowledge sharing included States targeting technical assistance to the
                      plans (reported by 21 States). Eight of these States focused their
                      assistance on improving PIPs. Often, EQROs provided assistance to
                      plans (reported by 15 States). States also reported sharing best
                      practices across their plans. Typically, these States convened periodic
                      meetings with representatives from the States, EQROs, and all plans.
                      Some States cited the potential value of identifying and sharing best
                      practices at the national level.
                      Fourteen States reported amending their contracts with managed care plans
                      based on EQRO findings
                      Of these States, 12 inserted new provisions into their contracts. The
                      changes included strengthening and clarifying contract requirements,
                      using external quality review results to justify contract extensions and
                      renewals, and adjusting PIPs.
                      Sixteen States also reported taking other actions based on EQRO reports
                      Other commonly reported State changes included modifying the
                      performance measures. Eleven States reported changes such as adding
                      new measures and establishing new benchmarks for plans to meet.
                      Additionally, nine States reported making changes such as
                      standardizing quality assurance processes and implementing a tracking
                      system for identifying and responding to adverse events.
                      Furthermore, 25 States required their EQROs to conduct optional review
                      activities during their last annual review period
                      States reported requiring their EQROs to conduct at least one of the five
                      optional review activities to provide additional information for States’
                      quality improvement efforts. One of the two most common optional
                      activities States reported was administering or validating surveys of

    OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                8
  F   I N D I N G        S


                        quality of care either to consumers or to providers. In the reports we
                        reviewed, many EQROs used the Consumer Assessment of Healthcare
                        Providers and Systems survey instrument. This survey stems from a
                        public-private initiative that developed standardized surveys of
                        patients’ experiences. The second of the two most common optional
                        activities was conducting focused quality studies on particular aspects
                        of care. Among the focused studies we saw, common topics included
                        determining childhood immunization rates at a specific age and
                        assessing trends in adolescent well care. See Table 2 for the number of
                        optional activities States required their EQROs to conduct.


                        Table 2: Optional Review Activities Required by States

                                                                                                        Number of States
                                                                                                           That Required
                                                                                                       EQROs To Conduct
                             Optional Activity                                                                   Activity

                             Administering or Validating Surveys on Quality of Care                                   14

                             Conducting Focused Quality Studies                                                       14

                             Validating Encounter Data                                                                12

                             Calculating Additional Performance Measures                                               7

                             Conducting Additional Performance Improvement Projects                                    6

                        Source: Office of Inspector General analysis of State Medicaid Agency survey data, 2007.




                                                                               Federal regulations require EQROs
Some EQRO reports did not include all required
                                                                               to produce five deliverables based
     information, despite the States’ oversight
                                                                               on their review activities and
                                                                               provide them to the States.
                        EQRO reports for 15 States were missing at least one of the five required
                        deliverables
                        Reports for 12 States were missing the assessment of managed care
                        plans’ responses to previous EQRO recommendations, and reports for
                        7 States were missing comparative information about all of the State’s
                        plans.

                        These deliverables can provide useful information. For example, some
                        reports displayed the previous EQRO recommendations, plan responses
                        and actions, and the new recommendations in one chart, thereby
                        enabling the States to see a comprehensive history at a glance. The

      OEI-01-06-00510   EXTERNAL QUALITY REVIEWS      IN   MEDICAID MANAGED CARE                                            9
F   I N D I N G 
S


                      comparative information often included tables presenting, for all plans,
                      performance measure scores, PIP ratings and scores, as well as charts
                      showing those plans not in compliance with each of the reviewed State
                      and Federal standards. In addition, some reports included a
                      comparison of the States’ plans with national averages.

                      Reports for 22 States included all of the required deliverables. Seven of
                      these States contracted with the same EQRO to produce their reports.
                      This EQRO structures its reports similarly, organized around each
                      required deliverable.
                      EQRO reports for eight States were missing information on at least one of
                      the three mandatory activities
                      External quality reviews must include three mandatory activities:
                      validation of PIPs, validation of performance measures, and reviews of
                      compliance with State standards. EQRO reports from five States were
                      missing information on one mandatory activity, reports from two States
                      were missing information on two activities, and a report from one State
                      was missing information on all three activities. Because PIPs are
                      typically multiyear endeavors, many of the reports that did include data
                      on them could not draw full conclusions about the PIPs’ efficacy. In
                      reports we reviewed, plans completed only about 20 percent of the PIPs.
                      In these cases, the reports included a summary of the PIPs’ progress at
                      that point and a review of the managed care plans’ methodology.
                      All States reported regularly monitoring their EQROs
                      States rely on ongoing communication, written status reports, and
                      contract provisions to oversee their EQROs.

                      All but 1 of the 37 States reported regularly communicating with their
                      EQROs through telephone calls, e-mail, and in-person meetings.22
                      Typically, contact occurred weekly and involved the EQRO updating the
                      State on its progress in completing particular review activities and how
                      the EQRO was performing toward meeting its timeline. This gave both
                      parties an opportunity to discuss any problems that may have arisen.
                      Staff from one State told us that they had increased contact with their
                      EQRO to weekly calls because of concerns over its performance.




                        22 The State that reported no ongoing communication with its EQRO performs the
                      external quality reviews itself. This State contracts with EQROs only to produce the
                      annual report.



    OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                                  10
  F   I N D I N G        S


                        Twenty-four States also require their EQROs to submit ongoing status
                        reports during the review period. These reports typically include
                        information on the EQROs’ progress toward completing deliverables.
                        Contracts for 22 States require EQROs to submit written status reports
                        or draft reports.

                        Of the 37 EQRO contracts and requests for proposals we reviewed,
                        34 included provisions to ensure EQRO compliance with Federal
                        regulations. Contracts in 24 States require EQROs to show that they
                        (1) have sufficient and qualified staff, (2) are entities independent of the
                        State Medicaid agencies, and (3) possess sufficient resources to conduct
                        the external quality reviews. One of these States required its EQRO to
                        pass a readiness review prior to beginning review activities. That State
                        designed its review to ensure that the EQRO had in place the
                        infrastructure to successfully conduct external quality reviews.

                        Even though States had contractual remedies available to them, EQRO
                        reports for 19 States were still missing either required deliverables or
                        information on mandatory activities. Among the remedies were those
                        allowing States to withhold payment from EQROs or requiring them to
                        purchase a performance bond to be forfeited to a State if an EQRO
                        failed to fulfill its contract. When asked whether they would change the
                        review process based on their experiences to date, only one State
                        specifically addressed the missing elements. That State reported that it
                        was developing stricter requirements for the delivery of external quality
                        review products.


More than half of the States cited concerns with           Twenty-four of the thirty-seven
            the external quality review process            States reported three main
                                                           concerns: staffing, EQRO report
                        quality, and redundancy with other monitoring efforts.
                        Sixteen States identified staffing concerns with the external quality review
                        process
                        Among these States, 15 reported that staff turnover at the managed
                        care plans, State Medicaid agencies, or EQROs prevented them from
                        implementing EQRO report recommendations because of the time
                        needed to train new staff. Seven States specifically identified training
                        EQRO staff as a barrier. These States reported that to get acceptable
                        reports, they had to provide EQROs with technical assistance, thereby
                        using States’ time and resources that otherwise would have been spent
                        on their own oversight.

      OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                   11
F   I N D I N G 
S


                      Thirteen States raised concerns with the quality of EQRO reports
                      States identified concerns ranging from the timeliness of the reports to
                      the degree to which the findings and recommendations could be
                      implemented. In our review of the reports, the substance of
                      recommendations varied widely. Some were extremely broad and
                      difficult to interpret. For example, one report recommended:

                            Overall, and as seen from the data, tables, and graphs
                            presented herein, the plan is responsible for addressing
                            opportunities for quality improvement through the
                            corrective action plan process established by the State.
                            Although the plan is empowered to design and implement
                            a corrective action plan that most suitably addresses
                            substandard performance . . . . It will be imperative that
                            the plan follow completely through with its corrective
                            action plan(s) already approved by the State, which will
                            also be monitored by the State.

                      Similarly, another EQRO recommended that a plan “monitor
                      performance of health care utilization and health indicators, identify
                      areas for improvement, implement intervention strategies, and monitor
                      the effectiveness of the interventions” without offering any more specific
                      information. Furthermore, two other States reported that, to get an
                      acceptable report, they had to use their own resources to provide
                      technical assistance to their EQROs. Finally, one State found that the
                      EQRO wrote the report with CMS as its primary audience, thus
                      diminishing the report’s value to the State.

                      Eleven States requested additional technical guidance and feedback
                      from CMS, particularly regarding EQRO reports. Staff we spoke with
                      from one State wanted more guidance from CMS at the national level
                      rather than the regional, particularly regarding minimum standards for
                      report organization.
                      Five States reported finding EQRO mandatory activities redundant to other
                      monitoring activities
                      Many States require plans to use specific performance measures, known
                      as the Healthcare Effectiveness Data and Information Set, which
                      EQROs then validate. The National Council on Quality Assurance,
                      which accredits almost 30 percent of the plans for which we reviewed




    OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                12
F   I N D I N G        S


                      reports, validates those same measures.23 In other cases, the States
                      conduct their own reviews as part of their contract with the plans.
                      These duplicate activities can place a burden both on plans, which must
                      provide similar data to EQROs, States, and/or accreditors, and on
                      States, which must use their resources to ensure that plans submit data
                      to EQROs, thus reducing time spent on other oversight issues.

                      Federal regulations permit States to use data from a Medicare or
                      accreditation review in place of the EQRO review of plan compliance
                      with State standards.24 However, States reported receiving conflicting
                      guidance from CMS, particularly from the regional offices, on this
                      provision. A staff member from one State told us that she relied on
                      their EQRO to determine what data it used in its review. Because of
                      the States’ uncertainty, six States requested increased guidance or
                      flexibility from CMS regarding use of accreditation data in external
                      quality reviews.




                        23 National Council on Quality Assurance, “MCO Accreditation.” Available online at 


                        http://web.ncqa.org/tabid/67/Default.aspx. Accessed on May 20, 2008. 

                        24 42 CFR § 438.360. 





    OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                                    13
Δ   R E C O M M E N D A T I O N S




                  We found that although most States are using the results of EQRO
                  reviews and find value in the review process, more than half of the
                  States raised concerns regarding the external quality review process,
                  including concerns about staffing, the quality of reports, and redundant
                  data reporting. States oversee the external quality review process
                  through a variety of means, yet EQRO reports for some States are
                  missing required information. To improve the quality and usefulness of
                  the external quality review process, States requested additional
                  guidance and feedback from CMS on these and other issues.

                  To help States ensure that all required elements are present and
                  maximize the usefulness of external quality reviews, CMS should:
                  Work With States To Ensure That EQROs Are Providing Complete
                  Information
                  CMS could, as part of its review of the contents of the EQRO reports,
                  inform States if it finds that any of the required deliverables are
                  missing. Further, CMS could amend its regulations to describe, as a
                  condition for receiving enhanced reimbursement, the steps that States
                  must take to ensure that all required deliverables are included in the
                  quality review results.
                  Provide Additional Technical Assistance and Written Guidance to States
                  CMS could do this by organizing teleconferences, offering written
                  guidance, and sharing best practices. CMS should continue to use a
                  format similar to its 2006 teleconference. It should schedule these
                  conferences regularly, perhaps annually or semiannually.

                  CMS should provide further written guidance to the States. This
                  guidance could build on the tool kit that CMS has already developed.
                  CMS should post its written guidance online to make it easily accessible
                  to any new State Medicaid agency staff.

                  Because CMS usually receives and reviews the EQRO reports, it should
                  consider culling best practices to share across the States. It could share
                  these during teleconferences.

                  Finally, CMS should consider two priorities for its technical assistance
                  and written guidance:




OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                 14
R   E C O        M M E N D A T           I O N           S


                      Provide States with minimum standards for report organization and content.
                      Further guidance could reduce the likelihood that any of the required
                      deliverables would be missing from EQRO reports. Clarifying
                      expectations for the content of reports could improve their level of detail
                      and usefulness, particularly regarding the assessment of plan strengths
                      and weaknesses. CMS could utilize best practices from reports to serve
                      as a model for other States.

                      Clarify the degree to which Federal regulations allow the data from
                      accreditation reviews to be used. Currently, States have received
                      differing interpretations from CMS central and regional offices
                      regarding whether Federal regulations allow them to use data from
                      accreditation reviews in place of external quality reviews. Providing
                      consistent and specific guidance could improve efficiency for States,
                      plans, and EQROs.


                      AGENCY COMMENTS
                      CMS agreed with both of our recommendations and cited actions that it
                      has taken in response to each. It provided feedback to Medicaid
                      Directors in 15 States regarding deficiencies in EQRO reports. CMS
                      also focused one of its triannual audio conferences, available to States
                      and EQROs, on external quality reviews. Further, CMS assisted the
                      National Committee on Quality Assurance in creating a document for
                      States on using accreditation data in their reviews. CMS has begun
                      working with a second managed care accreditation agency, the
                      Utilization Review and Accreditation Committee, on a similar
                      document. The complete text of CMS’s comments can be found in
                      Appendix C.




    OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                  15
 Δ          A P P E N D I X                  ~            A

        Status of States’ Arrangements for External Quality Reviews at the Time of Our Review

States that are required to arrange for external quality reviews (because they have Medicaid
managed care contracts):


Alabama                               Kentucky                                    Oregon
Arizona                               Maine                                       Pennsylvania
California                            Maryland                                    Rhode Island
Colorado                              Massachusetts                               South Carolina
Connecticut                           Michigan                                    Tennessee
District of Columbia                  Minnesota                                   Texas
Delaware                              Missouri                                    Utah
Florida                               Nebraska                                    Vermont
Georgia                               Nevada                                      Virginia
Hawaii                                New Jersey                                  Washington
Illinois                              New Mexico                                  West Virginia
Indiana                               New York                                    Wisconsin
Iowa                                  North Carolina
Kansas                                Ohio


States that are not required to arrange for external quality reviews (because they do not have
Medicaid managed care contracts):


Alaska
Arkansas
Idaho
Louisiana
Mississippi
Montana
New Hampshire
North Dakota
Oklahoma
South Dakota
Wyoming


        OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                    16
Δ   A P P E N D I X                      ~           B




                  Time Period of EQRO Reports Reviewed



                                                                                                     Number of States'
                     Time Period                                                                        EQRO reports

                     Calendar Year 2004                                                                                   2

                     Calendar Year 2005                                                                                 10

                     Calendar Year 2006                                                                                   3

                     Fiscal Year 2005                                                                                     4

                     Fiscal Year 2006                                                                                     4

                     Fiscal Year 2007                                                                                     1

                     Other Time Period *                                                                                13

                        Total                                                                                          37

                  Source: Office of Inspector General analysis of State Medicaid agency survey data, 2007.

                  * Reports covering other time periods include those covering more than 12 months, 12-month periods that did not
                  specify fiscal or calendar years, and periods that we were unable to identify.




OEI-01-06-00510   EXTERNAL QUALITY REVIEWS      IN   MEDICAID MANAGED CARE                                                 17
Δ   A P P E N D I X                  ~            C


     Agency Comments




OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE   18
A   P   P E N D       I X      ~     C




    OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE   19
A   P   P E N D       I X      ~     C




    OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE   20
Δ   A C K N O W L E D G M E N T S


                  This report was prepared under the direction of Joyce M. Greenleaf,
                  Regional Inspector General for Evaluation and Inspections in the
                  Boston regional office, and Russell W. Hereford, Deputy Regional
                  Inspector General.

                  Ivan Troy served as the team leader for this study. Other principal
                  Office of Evaluation and Inspections staff from the Boston regional
                  office who contributed to the report include Rose Lichtenstein; other
                  central office staff who contributed include Cynthia Thomas.




OEI-01-06-00510   EXTERNAL QUALITY REVIEWS   IN   MEDICAID MANAGED CARE                   21
